No. 21inThe

Supreme Court of tije flmtefc States
United States Of America,
Plaintiff-Appellee,
v.
Robert Earl Martin,
Petitioner-Appellant.
PROOF OF SERVICE
I, ROBERT EARL MARTIN, do swear or declare
that on this date, February 24, 2021, as required by U. S.
Supreme Court Rule 29, I have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party
to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an
envelope containing the above documents in the United
States mail properly addressed to each of them and with
first-class, postage prepaid, to the Solicitor General of the
United States, Room 5614, Department of Justice, 950
Pennsylvania Avenue, N. W., Washington, D. C. 205300001.
I declare under penalty of peijury that the foregoing
is true and correct to the best of my knowledge.

Executed on Feb. 24, 2021.

Robert Earl Martin

RECEIVED
MAR 2 - 2021

